U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Tennessee General Assembly, et al. v. U.S. Department of State, et al.,
S.Ct.No. 19-1137

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 13, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on June 11, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 13, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1137
TENNESSEE GENERAL ASSEMBLY, ET AL.
U.S. DEPARTMENT OF STATE, ET AL.

JULIE AXELROD
401 HOLLAND LANE, APT 1414
ALEXANDRIA, VA 22314
703-888-2442
JBA@CIS.ORG
JOANNE E. BREGMAN
ATTORNEY
6049 ROBIN HILL ROAD
NASHVILLE, TN 37205
615-589-9489
JEBREGMAN@GMAIL.COM
JOHN J. BUIRSCH
BTJRSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
616-450-4235
JBURSCH@BURSCHLAW.COM
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-lA
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
RICHARD THOMPSON
THOMAS MORE LAW CENTER
P0 BOX 393
ANN ARBOR, MI 48106
743-827-2001

